|

@OCKLE

* E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923,
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

LUCILLE S. TAYLOR, an individual,
Petitioner,
Vv.
DENNIS M. BARNES, in his official capacity as
President of the State Bar of Michigan Board of
Commissioners; ROBERT J. BUCHANAN, in his
official capacity as President-Elect of the State Bar
of Michigan Board of Commissioners; DANA M. WARNEZ,
in her official capacity as Vice President of the State Bar
of Michigan Board of Commissioners; JAMES W. HEATH,
in his official capacity as Secretary of the State Bar of
Michigan Board of Commissioners, DANIEL DIETRICH
QUICK, in his official capacity as Treasurer of the
State Bar of Michigan Board of Commissioners,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 7968 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Ist day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

te. MOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 6, 2023

    

thos Oudav-h, hl

Affiant 0

 

Notary Public
